IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

NO.

HECTOR MOLINA,

PETITIONER,
v.

ROBERT W. FOX, WARDEN,
RESPONDENT.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner, HECTOR MOLINA, pursuant to Rule 39.1, Rules of the
Supreme Court of the United States, and 18 U.S.C. ยง 3006A, asks leave to file the
attached Petition for Writ of Certiorari to the United States Court of Appeals for
the Ninth Circuit without pre-payment of costs and to proceed in forma pauperis.
Petitioner was represented by appointed counsel on appeal to the United States

Court of Appeals for the Ninth Circuit, pursuant to the Criminal Justice Act.

Dated: November 20, 2020 Respectfully submitted,

DENA MARIE YOUNG
2751 4" Street, PMB #136
Santa Rosa, California 95405
Telephone: (707) 528-9479

Email: dmyounglaw@gmail.com

Attorney for Petitioner
HECTOR MOLINA
